            Office of Inspector General




May 9, 2005

DEWITT O. HARRIS
VICE PRESIDENT, EMPLOYEE RESOURCE MANAGEMENT

SUBJECT: Audit Report - Verification of the Anticipated and Realized Medical Cost
         Savings Resulting From the Postal Service’s Contracts With First Health
         Group Corporation (Report Number HM-AR-05-005)

This report presents the results of our self-initiated audit of the Postal Service’s
contracts with First Health Group (FHG) Corporation to provide injury compensation
medical bill review services (Project Number 04YG030HM000). The objectives of our
audit were to:

    •   Verify the anticipated and realized savings to the Postal Service derived from the
        FHG contracts.

    •   Determine whether the recommendations agreed to in the previous Office of
        Inspector General (OIG) report1 were implemented and whether modifications
        should be made to the current FHG contract.

The Postal Service was successful and realized $2.2 million in cost savings over a
four-year period. Although this was not the $30 million annual savings the Postal
Service anticipated, it is working with the Department of Labor (DOL) and FHG to
improve their savings.

We also determined that four of the five recommendations in the previous OIG report
were implemented and, although recommendation 2 was not fully implemented, there
was no effect on the current contract. Further, we determined the current FHG contract
needed no modifications.




1
 Postal Service OIG Audit Report Postal Service’s Arrangement with a Preferred Provider Organization
(Report Number HK-AR-03-001, dated March 31, 2003).

    1735 N Lynn St.
    Arlington, VA 22209-2020
    (703) 248-2100
    Fax: (703) 248-2256
Verification of the Anticipated and Realized Medical Cost Savings                                     HM-AR-05-005
 Resulting From the Postal Service’s Contracts With First Health Group Corporation


                                                Background
Office of Workers’ Compensation Programs

The DOL’s Office of Workers’ Compensation Programs (OWCP) is responsible for
adjudicating bills and paying compensation, medical, and death benefits for injured
federal workers, including Postal Service employees. The Federal Employees’
Compensation Act (FECA) covers all medical care that an employee needs to recover
from the effects of a work-related injury, including hospitalization, nursing services,
prosthetic appliances, and the services of an attendant when required for severe
injuries. Payments for medical services are subject to a schedule of maximum
allowable amounts. These benefits are paid from the OWCP’s Employees’
Compensation Fund, which is later reimbursed by federal agencies through the
chargeback2 billing process.

Postal Service Workers’ Compensation Costs

The Postal Service was the largest participant in the DOL’s OWCP in chargeback
year (CBY) 2004, representing about 30 percent of the total federal workforce that
participated. It was also the largest payee to the OWCP, with approximately
$830 million in payments for the same year–more than 35 percent of the $2.3 billion in
total federal workers’ compensation payments. In addition to the $830 million, the
Postal Service also paid chargeback billing costs of $22.9 million for the old Post Office
Department and an administrative fee3 of $44.5 million. This brings the total CBY 2004
costs to $897.4 million as shown in Table 1.
       Table 1. Postal Service Total Workers’ Compensation and Medical Costs for CBY 2004

                                                                          CBY 2004
                                         Type of Cost                    (in millions)
                              Postal Service Workers’
                              Compensation and Medical Costs                    $830.0

                              Post Office Department Workers’
                              Compensation and Medical Costs                       22.9

                              Administrative Fee                                   44.5

                                Total                                           $897.4

                            Source: DOL OWCP Chargeback Billing Summary




2
  OWCP’s Chargeback System is the mechanism by which the costs of compensation for work-related injuries and
death are billed annually by DOL to employing agencies. The chargeback billing period is from July 1 in one year, to
June 30 the following year.
3
  The Postal Service’s administrative fees increased 35.3 percent, from $32.9 million in CBY 2000 to $44.5 million in
CBY 2004.

                                                          2
Verification of the Anticipated and Realized Medical Cost Savings                                        HM-AR-05-005
 Resulting From the Postal Service’s Contracts With First Health Group Corporation


History

FHG is a preferred provider organization with a network of doctors and hospitals that
totaled 4,342 hospitals and 333,108 doctors and allied health care professionals as of
April 2004. It has 5,500 employees at 35 locations nationwide and a client base that
includes nearly 1,200 clients in the group health and workers' compensation
marketplaces. FHG manages an estimated $20.3 billion in medical bills on behalf of its
clients.

Prior to the first contract with FHG, the 811,000 physicians and 6,000 medical centers
that provided medical services to injured Postal Service employees nationwide
submitted bills directly to the 12 separate OWCP paying offices. The intent of the FHG
contract was for one medical contract to provide bill review services that would help
standardize4 bill processing procedures and decrease the cost of medical services
through negotiated fee schedules.

On March 1, 2001, the Postal Service entered into a two-year contract with FHG to test
a program to provide bill review services5 through FHG’s network to the Postal Service.
The purpose of the test program was to substantially slow the rapidly increasing medical
costs incurred by the Postal Service. FHG anticipated that taking advantage of its
network discounts,6 which were negotiated by FHG with its providers,7 would result in
medical cost savings. These discounts were presumed to be lower than fee schedule8
amounts paid by the OWCP.

The medical costs savings were to be achieved from providers submitting all medical
bills to FHG rather than the OWCP for payment. FHG would identify providers who
belonged to its network based on these submissions and then send them to the OWCP
for processing. The OWCP would then issue checks to FHG who, upon receipt, would:

    •    Apply its network discount.
    •    Issue checks to its network providers.
    •    Retain its fee (60 percent of the difference after the provider was paid).
    •    Remit net savings (40 percent) to the Postal Service monthly.

FHG estimated the Postal Service portion of medical cost savings would be $30 million
annually when the test program was fully implemented. Appendix B is a flowchart that
shows how each bill is processed from the time the employee is injured until the Postal
Service receives its savings check from FHG.

4
  “Standardization” is defined as FHG's billing process of using the same form every time and submitting all bills to the
12 OWCP paying offices.
5
  Bill review services are the repricing of bills to the FHG network contracted rate.
6
  The discounts are based on contractual arrangements between FHG and providers who agree to accept a reduced
payment.
7
  According to a Postal Service official, FHG providers are willing to accept a reduced payment from FHG because
they expect an increase in business volume, a reduction in billing expenses, and a faster turnaround in payments.
8
  The FECA fee schedule, Title 20, Code of Federal Regulations, Part 10, is a list of medical codes, service
descriptions, and the corresponding maximum allowable amounts used by the OWCP to reimburse providers for
medical services.

                                                            3
Verification of the Anticipated and Realized Medical Cost Savings                                      HM-AR-05-005
 Resulting From the Postal Service’s Contracts With First Health Group Corporation



On March 12, 2001, the Postal Service, FHG, and the DOL signed a Memorandum of
Understanding (MOU) to allow the Postal Service to evaluate the concept of using the
FHG to reprice its medical bills and submit them to the OWCP. On June 21, 2002, the
contract was modified to expand the program nationwide and on December 26, 2002,
the new contract was awarded with four one-year options.

According to the Postal Service’s November 2004 Transformation Plan Progress
Report, the Postal Service's contract with FHG continues to be effective. The report
states the Postal Service has received more than $2.3 million9 in cost savings through
its association with FHG and its hospital and physician network.

                            Objectives, Scope, and Methodology
We reviewed the current signed FHG contract, including the statement of
work/solicitation proposal with the Postal Service, representing the period October 1,
2003, through September 30, 2004, and, subsequently, extended for one year.10 We
also reviewed the prior contract representing the period March 1, 2001, through
February 28, 2003,11 and determined whether the prior audit report’s recommendations,
as they related to the current contract, were implemented.

We reviewed FHG’s Business Summary Reports12 for savings for the period March 19,
2001, through July 31, 2004. We also compared the Postal Service's savings on those
reports to the FHG check payments made to the Postal Service to ensure they matched
the receipts.

We interviewed Postal Service Headquarters' Health and Resource Management and
FHG officials to gain an understanding of the savings derived from the contracts with
FHG and we determined whether the Postal Service had adequate internal controls for
the oversight of the reported savings.

Through interviews with Postal Service and FHG officials and a review of the current
FHG contract, we documented and evaluated the policies, procedures, and
requirements used to identify and address billing errors.

This audit was conducted from September 2004 through May 2005 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as were considered necessary under the circumstances. We discussed our
observations and conclusions with appropriate management officials and included their

9
 Although the Postal Service reported $2.3 million, we validated $2.2 million.
10
   The current contract was effective October 1, 2003, and contains four one-year options. The total period of contract
performance may not exceed five years (September 30, 2008). The Postal Service has already exercised the
first option, extending the current period of performance through September 30, 2005.
11
   Although a signed agreement was not in effect from March 1, 2003, through September 30, 2003, FHG continued to
provide medical bill review services to the Postal Service, since contract negotiations were already underway for a
follow-on contract.
12
   Business Summary Reports are Microsoft Excel spreadsheets prepared by FHG containing medical bill data.

                                                          4
Verification of the Anticipated and Realized Medical Cost Savings                                HM-AR-05-005
 Resulting From the Postal Service’s Contracts With First Health Group Corporation


comments where appropriate. We relied on computer-processed data from the FHG Bill
Review System. We did not establish the data’s reliability. In our opinion, use of this
data was not significant to our finding.

                                                  Results
Anticipated and Realized Savings

The Postal Service was successful and realized $2.2 million13 in cost savings over a
four-year period. This was not the anticipated annual $30 million savings because FHG
did not receive the volume of medical bills they expected. According to FHG and Postal
Service officials, the savings did not reach the anticipated level because many providers
are billing the OWCP directly and not sending their bills to FHG as planned. This
occurred because there was no provision in the MOU with the OWCP that medical bills
only be forwarded to FHG.

Postal Service management told us they are currently working with DOL and FHG to
facilitate a process whereby all provider bills will be sent to FHG. Postal Service
management anticipates this will substantially increase the realized savings.

Prior Audit Coverage

Four of the five recommendations agreed to in the previous OIG report14 were
implemented and a fifth recommendation was not fully implemented. Specifically, the
Postal Service:

     •   Developed and obtained written approval for the noncompetitive purchase
         request submitted to Supply Management, resulting in the current contract with
         FHG (recommendation 1).

     •   Obtained prior written approval for the noncompetitive purchase request prior to
         executing the current contract with FHG. In addition, the noncompetitive
         purchase request was approved at the appropriate level within Supply
         Management (recommendation 3).

     •   Negotiated to include appropriate standard contract clauses and eliminated
         restrictive clauses in the current contract with FHG (recommendation 4).

     •   Renegotiated the percentage of medical cost savings split in the current contract
         with FHG (recommendation 5).


13
   We reviewed FHG’s Business Summary Reports and verified checks paid to the Postal Service for the period
March 19, 2001, through July 31, 2004. Our review disclosed a $1,295 shortage that FHG reimbursed the Postal
Service for as soon as it was discovered.
14
   Postal Service OIG Audit Report, Postal Service’s Arrangement with a Preferred Provider Organization
(Report Number HK-AR-03-001, dated March 31, 2003).

                                                       5
Verification of the Anticipated and Realized Medical Cost Savings                    HM-AR-05-005
 Resulting From the Postal Service’s Contracts With First Health Group Corporation


However, the Postal Service did not prepare contract documentation to include the
rationale for the best value determination as required by the Purchasing Manual,
Issue 2, paragraph 4.2.5.d, dated January 31, 2002 (recommendation 2). Although this
recommendation was not fully implemented, we determined it had no effect on the
current contract.

We also determined that no modifications to the current FHG contract were needed.

Other Issues

We noted the following contract administration control weaknesses and, although we
did not consider them significant, we brought them to the attention of the contracting
officer (CO) in charge of the FHG contract at the Travel, Retail, and Temporary Services
Category Management Center in Denver, Colorado:

    •   The CO relied on the program manager to monitor and accept contractor
        performance without delegating such authority in writing. This condition was
        corrected prior to the issuance of this report.

    •   The Postal Service did not have a contract with FHG from March 1, 2003, to
        October 14, 2003.

We have no recommendations for Postal Service officials regarding the issues in this
report.

Management’s Comments

Management’s only disagreement with the report was the actual amount of gain share
the Postal Service planned to achieve. They agreed the original estimate was $30
million; however, they said this was based on the Postal Service paying a fee for the
program. They said the Postal Service never formally changed the anticipated savings
when the program was changed to a gain share. They also stated they based their
planned gain share of 40 percent–or $12 million–on the FHG’s original estimate that the
Postal Service could save $30 million.

Management further stated that in several presentations it has given regarding
the contract with FHG, it has anticipated the Postal Service’s savings to be between
$10-15 million annually. Management agreed the OIG correctly identified the reasons
the savings had not approached this amount.

Management also stated if the planned process changes are implemented the Postal
Service should see a gain share in the $8-12 million range, depending on the gain share
percentage. Management also stated this program does not cost the Postal Service
anything, yet currently produces about $1 million in gain share per year. Management’s
comments, in their entirety, are included in Appendix C of this report.



                                                    6
Verification of the Anticipated and Realized Medical Cost Savings                    HM-AR-05-005
 Resulting From the Postal Service’s Contracts With First Health Group Corporation


Evaluation of Management’s Comments

Management’s actions taken or planned are responsive to the findings identified in the
report.

We appreciate the cooperation and courtesies provided by your staff during the
audit. If you have any questions or need additional information please contact
Chris Nicoloff, Director, Human Capital, or me at (703) 248-2300.

/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Mary Anne Gibbons
    Suzanne F. Medvidovich
    Keith Strange
    Ronald E. Henderson
    Steven R. Phelps




                                                    7
Verification of the Anticipated and Realized Medical Cost Savings                    HM-AR-05-005
 Resulting From the Postal Service’s Contracts With First Health Group Corporation


                            APPENDIX A. ABBREVIATIONS
CBY             Chargeback Year
CO              Contracting Officer
DOL             Department of Labor
FECA            Federal Employees' Compensation Act
FHG             First Health Group
MOU             Memorandum of Understanding
OIG             Office of Inspector General
OWCP            Office of Workers' Compensation Programs




                                                    8
 Verification of the Anticipated and Realized Medical Cost Savings                                     HM-AR-05-005
  Resulting From the Postal Service’s Contracts With First Health Group Corporation


            APPENDIX B. FHG BILL PROCESS FLOWCHART

                                          Employee
                                          Is Injured



                                    Injured Employee
                                   Fills Out CA-1 Claim
                                           Form



                                    Injured Employee
                                     Goes to Provider




                                  Provider Sends Bills to
                                  PO Box Controlled By
                                           FHG


                                                             Bills from FHG
                    Non-FHG                                  Providers Are
                     Provider                                Processed at
                     Bills Go                               FHG and Sent to
                    Straight to                                the OWCP
                     OWCP


     OWCP
 Adjudicates                                                                                  OWCP Adjudicates
Bills and Pays                         OWCP Puts Payment                                      Bills and Pays FHG
 the Provider                          on USPS Chargeback
                                             Report




                                                                                               FHG Pays Provider its
                                                                                               Network Fee Allowable
                                                                                              (Which is Normally Less
                                                                                               than FECA Allowable)
                                            USPS Reviews
                                              Chargeback
                                            Report for Errors


                         If an Error Is                          If There Are                FHG Takes 60 percent of the
                          Found, it Is                             no Errors,                  Difference Between FECA
                          Reported to                             Payment Is               Allowable (OWCP Payment) and
                             OWCP                                   Made to                Amount FHG Pays its Providers
                                                                    OWCP


                           OWCP
                         Refunds the                                             FHG Pays USPS 40 percent of the Difference
                        Chargeback to                                           between FECA Allowable (OWCP Payment) and
                           USPS                                                        Amount FHG Pays its Providers


                                                       9
                                                       1
Verification of the Anticipated and Realized Medical Cost Savings                    HM-AR-05-005
 Resulting From the Postal Service’s Contracts With First Health Group Corporation



            APPENDIX C. MANAGEMENT’S COMMENTS




                                              9
                                              2
